HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by
AdminaStar Federal, Inc., for Fiscal Years 1991 through 2002,"(A-07-05-00187)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by
AdminaStar Federal, Inc., for Fiscal Years 1991 through 2002," (A-07-05-00187)
December 6, 2005
Complete
Text of Report is available in PDF format (383 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs that
AdminaStar claimed for Medicare reimbursement for fiscal years (FYs) 1991 through 2002.  AdminaStar
claimed $4,833,704 of unallowable pension costs for FYs 1991 through 2002 because it did
not claim pension costs in accordance with the Medicare contracts.  We recommended that
AdminaStar revise its Final Administrative Cost Proposals for FYs 1991 through 2002 to reduce
its pension costs by $4,833,704 and claim future costs in accordance with the Medicare contracts.  AdminaStar
agreed.